U.S. Department of the Interior
Office of Inspector General




     EVALUATION REPORT


      YEAR 2000 READINESS OF
AUTOMATED INFORMATION SYSTEMS AT
    THE BUREAU OF RECLAMATION

             REPORT NO. 99-I-165
               JANUARY 1999
BACKGROUND

The “Y2K problem” is the term used to describe the potential failure of information
technology systems, applications, and hardware related to the change to the year 2000. Many
computer systems that use two digits to keep track of the date will, on January 1, 2000,
recognize “double zero” not as 2000 but as 1900. This could cause computer systems to stop
running or to start generating erroneous data. The problem has been recognized as nationally
significant by the President in Executive Order 13073, issued in February 1998. The
Secretary of the Interior, in a December 1997 memorandum, stated that the Y2K problem
was critical to the Department in meeting its mission and that resolution of the problem was
one of his highest priorities. Further, Office of Management and Budget Memorandum
98-02, “Progress Reports on Fixing Year 2000 Difficulties,” issued on January 20, 1998,
requires all Federal executive branch agencies to ensure that Federal Government systems
do not fail because of the change to the year 2000 and to have all systems, applications, and
hardware renovated by September 1998, validated by January 1999, and implemented (that
is, “fixes to all systems--both mission critical and non-mission critical”) by March 1999. The
Office of Management and Budget, in Memorandum 98-02, states that it is to provide
“information to the Congress and the public as part of its [Office of Management and
Budget’s] quarterly summary reports on agency progress. . . [and] to report on the status of
agency validation and contingency planning efforts and on progress in fixing. . . equipment
that is date sensitive.”

The Department has developed the “Department of the Intenor Year 2000 Management
Plan,” which focuses on the resolution of the Y2K problem and provides an overall strategy
for managing Departmental mission-critical systems and infrastructure. The Department has
a multitiered approach to managing the Y2K problem that includes a top tier, which
comprises the Secretary of the Interior; the Information Technology Steering Committee,
which consists of the Chief of Staff and Assistant Secretaries; and the Chief Information
Officer, who is responsible for the Department’s Y2K issues. This tier, which represents
senior-level Departmental managers, provides the Y2Kproject’s direction and resources and
ensures accurate reporting to external organizations, such as the Office of Management and
Budget and the Congress. A DepartmentwideY2K project team, which reports to the Chief
Information Officer and comprises representatives from each agency and the Office of the
Secretary, is tasked with developing the Department’s “Year 2000 Management Plan,”
refining inventory data on the Department’s mission-critical and information technology
portfolio systems,’ and monitoring and reporting the progress of each conversion. In
addition, a Y2K Embedded Microchip* Coordinators Team has been established to inventory


‘The portfolio is an inventory listing of 13 crosscutting or sensitive systems that are receiving attention at the
Secretarial level.

‘Embedded microchips are “integrated circuits (miniature circuit boards)” that control “electrical devices,”
which include “elevators; heating, ventilation, and air conditioning (HVAC) systems; water and gas flow
controllers: aircraft navigational systems; . . . medical equipment”; and office devices such as telephones,
facsimile machines, pagers, and cellular telephones. (Department of the Interior’s Office of Managing Risk
and Public Safety “Year 2000 Embedded Microchip Hazards” [Web site])

                                                        2
                                                                    A-IN-BOR-00 l-98- R


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, DC. 20X0



                                                              JAN -8 m




                          EVALUATION REPORT
Memorandum

To:       Commissioner, Bureau of Reclamation
          Director, Denver Administrative Service Center, Bureau of Reclamation
                                 -7
From:     Robert J. Williams -/!;-d.,& ,_ cc LLi%~.ruL.
          Assistant Inspector General fo:Audits

Subject: Evaluation Report on Year 2000 Readiness of Automated Information Systems at
         the Bureau of Reclamation (So. 99-I-i65)

                               INTRODUCTION
This report presents the results of our evaluation of the year 2000 (Y2K) readiness of
automated information systems at the Bureau of Reclamation and the Bureau’s Denver
Administrative Service Center. The objective of our review was to determine whether the
Bureau inventoried its automated information systems and identified those systems that nere
mission critical and were not Y2Kcompliant and whether the Bureau and the Service Center
(1) developed auditable cost estimates for renovating systems to be Y2K compliant; (2)
identified, by name, individuals responsible for ensuring that the Bureau is Y2K compliant;
(3) ensured that responsible individuals’ personnel performance evaluation plans included
critical elements related to identifying and remedying Y2K problems; (4) developed a
credible plan that included milestones and a critical path to ensure that the Bureau is YZK
compliant; and (5) developed a contingency plan that would address the failure of any part
of the systems not being Y2K ready. This review was conducted at the request of the
Department of the Interior’s Chief Information Officer to assist the Information Officer in
monitoring the progress ofDepartmental agencies in ensuring Y2K readiness, implementing
Y2K compliant systems, and validating the accuracy of the information reported by the
Departmental agencies to the Chief Information Officer.
and monitor embedded microchip technology Y2K problems. The team is led by the Office
ofManaging Risk and Public Safety and comprises representatives ofthe eight Departmental
agencies, the Denver Administrative Service Center: and various Departmental offices.

The Department’s May 15, 1998, “Progress Report,” ivhich was submitted to the Office of
Management and Budget, reported that the Department had 91 mission-critical systems, of
which the Bureau of Reclamation had 16 systems (see Appendix 1). In addition, the Federal
Personnel Payroll System (FPPS), which was developed and maintained by the Service
Center, is 1 of the Office of the Secretary’s mission-critical systems and is 1 of the
Department’s 13 information technology portfolio systems. To address theY2K problems,
the Bureau established a Y2K project management structure. The structure included multiple
“Coordination Teams,” which were headed by an executive Y2K manager who is the
Director of the Management Services Office, and the teams included the Reclamation
Information Resources Management Coordinator, the Manager of the Policy and Program
Management Group, the Bureau’s IT (Information Technology) Security Manager, and Y2K
coordinators at Bureau program and regional offices. The Service Center also established
a Y2K project management structure that includes a Y2K executive, a Y2K program
manager, a Y2K coordinator, and three Y2K program element leaders.

SCOPE OF EVALUATION
To accomplish our objective, we reviewed the documentation available that supported the
Bureau’s information submitted to the Department’s Chief Information Officer for the May
1998 “Progress Report” and the documentation available that supported the information
submitted by the Service Center to the Office of the Secretary. We performed our evaluation
during April through July 1998 at the Reclamation Service Center’s Management Services
Office and the Denver Administrative Service Center, located in Denver, Colorado, and the
Bureau’s Eastern Colorado Area Office, located in Loveland. Colorado. We interviewed
personnel responsible for project coordination to identify the Bureau’s and the Service
Center’s Y2K plans and progress. We also interviewed personnel involved in various
aspects of the Y2K project, including coordination. compliance identification, software
remediation, and project management.

The evaluation was conducted in accordance lvith the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and included such tests and
inspection procedures considered necessary to accomplish the objective. Our conclusions
on the status of the progress made by the Bureau in addressing and remediating Y2K
problems were based on reviews of documentation maintained by the Management Services
Office and discussions with the Y2K coordinators throughout the Bureau and with
individuals performing remediation or replacement of noncompliant applications or
hardware. Also, our conclusions on the status of the progress made by the Denver
Administrative Service Center were based on reviews of documentation and discussions with
the Y2K program manager, the Y2K coordinator, the program element leaders, and
individuals performing remediation or replacement of noncompliant applications or
hardware. As specifically agreed to in our discussions with the Department’s Chief

                                            3
 Information Officer, we did not validate or certify that the Bureau’s or the Service Center’s
 systems were Y2K compliant.

                         RESULTS OF EVALUATION
Regarding the six areas that the Chief Information Officer requested us to evaluate, we found
that the Bureau had completed actions for two areas, had partially completed actions for three
areas, and had not completed action for one area. Specifically, the Bureau had designated
responsible officials and had inventoried its automated information systems, but the
Department’s Office of Information Resources Management agreed that the Bureau had to
report only 16 of its 48 noncompliant mission-critical systems. Additionally, the Bureau had
not included critical elements related to identifying and remedying Y2K problems in all
responsible individuals’ personnel performance evaluation plans; had not included all
systems in its master plan, which had completion dates that were inaccurate; and had
contingency plans that may not be adequate. For the remaining area, the Bureau had not
developed auditable cost estimates. Because actions have not been completed for all areas,
we believe that there is a risk that the Bureau may not meet the Office of Management and
Budget’s target date of March 1999 for having compliant Y2K systems implemented.

Additionally, of the five areas that the Chief Information Officer had requested us to review,
we found that the Denver Administrative Service Center had completed actions for three
areas, had not completed actions for one area, and had determined that one area was not
applicable. Specifically, the Service Center had developed a credible plan, including
milestones; had designated responsible individuals; and had updated the annual personnel
performance evaluation plans. However, the Center had not completed action on developing
a contingency plan but had determined that the development of auditable cost estimates was
not applicable to FPPS. As a result of the progress being made by Service Center Y2K
project management, we believe that the Service Center will meet the Office of Management
and Budget’s target date of March 1999 for having compliant Y2K systems implemented for
FPPS if the Y2K project proceeds as scheduled. If delays are encountered, development of
contingency plans may be necessary.

The specific actions taken by the Bureau of Reclamation and the Service Center related to
each area and other issues affecting the Bureau’s and the Service Center’s Y2K progress are
discussed in the paragraphs that follow.

Automated Information Systems Inventory

Although the Bureau had performed an inventory of all of its automated information systems
except for international project offices and identified 48 mission-critical systems. the
Bureau’s May 1998 “Quarterly Report” to the Department’s Chief Information Officer
showed only 16 noncompliant mission-critical systems. We found that the Bureau was
reporting only 16 systems as mission critical because its Y2K project management did not
use the Department’s criterion for reporting mission-critical systems, which states that “those
systems that when their capabilities are degraded, the organization realizes a resulting loss


                                              4
of a core capability or life or property are threatened.” Although Bureau Y2K project
management did not use the Department’s criterion for reporting, the Bureau received
approval from the Department’s Office ofInformation Resources hlanagement to report only
those systems that were to be repaired because of the large number of mission-critical
systems that would otherwise have to be reported and managed. Therefore, Bureau j’2K
project management said that it tracked and reported only systems that met all of the
following Bureau criteria: (1) were mission critical, (2) were not Y2K compliant, (3) were
date dependent, and (4) were being redeveloped or repaired. However, Office of
Management and Budget Memorandum 98-02 requires that executive agencies report the
“total number of mission-critical systems,” as well as the “number compliant, number being
replaced, number being repaired, and number being retired.” As a result, the Bureau and
Departmental Y2K project management were not tracking the replacement of Bureau
mission-critical systems, such as the Mid-Pacific Region’s Sutron Database System and the
Centralized Water and Power System Control system, that \vere not Y2K compliant and were
not reporting these systems to the Office of Management and Budget. However, in its
September 23, 1998, response (Appendix 2) to the draft report, the Bureau stated that it is
providing “high-level, ongoing management attention to ensure that all mission-critical
applications will be Y2K compliant in sufficient time prior to January 2000.”

Additionally, Y2K project management had not initially ensured that systems which had
been identified by Bureau regional personnel as Y2K compliant were Y2K compliant.
However, Y2K project management stated in exit conferences that a process was in place as
of July 1998 to ensure that systems which had been identified by Bureau regional personnel
as Y2K compliant are Y2K compliant.

We also found that the Bureau’s method of reporting mission-critical systems to the
Department’s Chief Information Officer did not focus on the Bureau’s mission and ability
to perform its core capabilities and that each region was allowed to define its mission-critical
systems. Therefore, the reporting of mission-critical systems was not consistent within the
Bureau. For example, the Bureau tracked and reported the Upper Colorado Region’s
Colorado River Storage Project (CRSP) and the Great Plains Region’s Wyoming Area Ot’ice
Supervisory Control and Data Acquisition(SCADA)3 systems as mission critical. Howe\.er,
there are SCADA systems in the other regions, such as the Lou,er Colorado and the Mid-
Pacific, that were identified as mission critical and not Y2K compliant at the time the
inventory was completed but were not reported. By not ensuring that all mission-critical
systems which support core capabilities are Y2K compliant before the year 2000, the risk is
increased that some of the Bureau’s systems may fail and that the Bureau may not be able
to deliver water and hydroelectric power to its customers without incurring significant
personnel costs.

The Department’s Chief Information Officer requested that we determine the progress ofthe
Bureau and the Service Center in addressing embedded microchips in information systems


3SC.4DA systems are systems that interface within selected water projects and are used by the Bureau ro
monitor and control water flow and hydroelectric power.
and facilities. We found that the Bureau and the Service Center, at the time of our review,
had begun to inventory embedded microchips in information systems and facilities.

Auditable Cost Estimates

Of the 16 mission-critical systems reported to the Department’s Chief Information Officer,
documentation was maintained for 2 systems: the Technical Service Center’s Data
Acquisition and Management System (DAMS) and the Upper Colorado Region’s CRSP
SCADA system. We found that the cost estimate of $9,000 for DAMS was auditable and
that the revised estimate of $285,300 for the Upper Colorado Region’s CRSP SCADA
system also was auditable.

Although cost estimates reported for the remaining 14 mission-critical systems were not
auditable, we attempted to determine whether the methodologies used by Bureau personnel
to develop the cost estimates were reasonable. Based on information from regional
personnel responsible for developing the cost estimates, we found that the methodologies
used varied. For example, cost estimates for the Modsim, the PNOPER, and the Hydromet
PNl systems in the Pacific Northwest Region were initially based on total lines of source
coded multiplied by $1 SO. However, personnel in the Region said that because they believed
the results were too high, they lowered the amounts for reporting purposes based on “best
estimates.” In addition, the EM340 terminal emulator in the Pacific Northwest Region was
renovated to be Y2K compliant. However, w’e found that the renovation costs were $35
rather than the $5,000 reported. For the SCADA system in the Great Plains Region’s
Wyoming Area Office, personnel in the Region said that the amount was a “best estimate.”
For the Hydromet Support and the North Platte River Daily Water Accounting systems,
which also are in the Great Plains Region, personnel in the Region said that the estimates
were based on total lines of source code multiplied by S 1.50. Additionally, renovation of the
Hydrological River Operations Study System (HYDROSS) at the Technical Service Center
was estimated to cost $5,680, which, according to the Y2K coordinator, was based on an
estimated 2 weeks of effort (80 hours) multiplied by S60 per hour. However, this formula
would result in an estimate of $4,800. In its response to the draft report, the Bureau stated
that the costs were $500 to renovate the EM340 terminal emulator and $5,680 for the
HYDROSS. However, because adequate documentation to support these costs was not
provided and because the Bureau stated in its response that “in most instances there have
been no means to track Y2K costs,” we determined that the Bureau’s reported estimated and
actual costs were not auditable.

In its response to the draft report, the Bureau stated that the Office of Inspector General did
not “expect consistent and auditable cost estimates at this point.” Hovvever, we stated that
we did not expect the Bureau to expend resources in correcting prior estimates but to ensure
that future estimated and actual costs were supported and auditable.



4Lines of source code are statements and instructions used by the computer to execute the tasks of computer
programs. (Computer Desktop Encyclopedia? Version 9.4,4th quarter, 1996)

                                                    6
According to Service Center Y2Kproject management, the Service Center had not developed
any cost estimates related to FPPS because the System was reported as compliant by design.
Project management was aware that products and the mainframe operating system which
were used to develop and operate FPPS were identified as not Y2K compliant. However,
Service Center Y2K project management said that they considered the upgrades to these
systems to be part of normal maintenance and not directly related to Y2K. Consequently, the
cost estimates related to Y2K remediation were not applicable. However, if costs
specifically related to remediating Y2K problems are identified, these costs should be
reported to the Department’s Chief Information Officer.

Designation of Responsible Individuals

We found that the Bureau had specifically designated, by name, the Y2K executive, the
Bureau Y2K coordinator, and Y2K coordinators in each of the Bureau’s regional offices in
its “Year 2000 IT Comprehensive Plan.” In addition, the Service Center had specifically
named a Y2K executive, a Y2K program manager, a Y2K coordinator, and three Y2K
program element leaders. Therefore, the Bureau and the Service Center had completed this
requirement.

Annual Personnel Performance Evaluation Plans

The Secretary of the Interior’s December 1997 memorandum required that “a critical
performance element for identifying and remedying” theY2K problem be included as part
of each responsible official’s annual performance plan. Responsible officials are defined in
the memorandum as agency directors, agency Y2K executives, agency information resources
management coordinators, safety officials, and all others as determined by the Y2K
executives. We found that 5 of the 13 Bureau Y2K coordinators, the Bureau Information
Resources Management Coordinator, and the Bureau Y2K executive had elements
addressing Y2K objectives in their annual personnel performance evaluation plans.
However, the remaining eight Bureau Y2K coordinators did not have such elements included
in their annual personnel performance evaluation plans.

We found that all six members of the Denver Administrative Service Center’Y2K
                                                                          s   project
team had elements addressing Y2K objectives in their annual personnel performance
evaluation plans.

Plan for Milestones

We found that the Bureau had provided a reasonable basis for developing the master plan and
critical paths for the systems reported to the Department as part of the progress reports.
Specifically, the milestones established in the Bureau’s master plan were developed by
system owners or other responsible persons in each region who were knowledgeable of the
systems, and the Bureau Y2K coordinator used a project management software tool to assist
in developing the plan. However, as discussed in the section “Automated Information
Systems Inventory” in this report, not all mission-critical systems had been included in the

                                             7
master plan. In addition, although the initial milestones appear to be reasonable, some ofthe
completion dates reported in the Bureau’s progress report were inaccurate (see the section
“Other Issues”).

The Service Center had developed five action plans: ( 1) the “Year 2000 Conversion Project
Action Plan,” (2) the “DASC Telecommunications l-ear 2000 Compliance Plan,” (3) the
“DASC LAN/PC Systems Year 2000 Compliance Plan,” (4) the “Y2K Embedded Chip
Project Plan,” and (5) the “FPPS Year 2000 Conversion Action Plan.” All of these plans
contain milestones and critical paths to addressY2K compliance for each system. Although
these plans were internal Service Center documents that were not submitted to the
Department’s ChiefInformation Officer and dates were revised as necessary, we believe that
the plans adequately identified milestones and critical areas. As of May 1998, these action
plans had completion dates of March 1999 or earlier.

Contingency Plans

We found that the Bureau had contingency plans for 15 of the 16 reported mission-critical
systems. The Bureau did not develop a contingency plan for the Pacific Northwest Region’s
EM340 system because Bureau management stated that this system Leas compliant and a
contingency plan was not necessary. The contingent!. plans for the 15 remaining systems
were not specifically related to Y2K but were existing plans for disasters such as floods or
earthquakes at the project sites. If the systems fail on January 1, 2000, the Bureau’s
contingency plans are to perform the functions of these systems manually based upon the
procedures defined in the disaster plans. The disaster recovery plans may not be adequate
in the case of Y2K failures because of the possible length of time required to remediate the
affected systems and the ready availability of people to repair lines of code or to perform the
manual operations. The disaster plans n-e reviewed \t\-ere for specific projects or clusters of
projects, such as for Hoover, Parker, and Davis Dams. and did not assess the impact on the
Bureau for the loss of systems such as the SCADA. Further, the plans did not identify the
number and experience level of personnel required to operate the Bureau’s facilities
manually and did not take into consideration the impact that embedded microchips in cellular
phones, telephones, radios, and automobiles mayhaye on the Bureau’s ability to operate its
facilities. For example, we found the following:

    - Bureau management said that they believed “people will be available at the power
plants to take over [operate the power plants manually]” if the Bureau’s noncompliant
SCADA systems, including hardware, software, and sensing devices, do not function after
December 3 1, 1999. In the Department’s May 1998 “Progress Report” to the Office of
Management and Budget, the Bureau requested a Lx-aiver to the Dual Compensation Act’
from the Office of Personnel Management to hire 10 power plant operators should the
SCADA systems fail. In its response, the Bureau stated that two SCADA systems were not
Y2K compliant and that “[mlost operations managers do not expect a need for additional


‘A waiver from the Act allows the Bureau to hire retired Federal employees without loss or reduction to the
employees’ entitlements.

                                                     8
help.” Therefore, according to the Bureau. the request for 10 power plant operators was
“Reclamation-wide in nature to cover unforseen contingencies.” However, we continue to
believe that if SCADA systems fail and the additional people required to operate water
project gates and power plants manually are not readily available, the Bureau may not have
control over water flow and its power plants.

    - The North Platte River Daily Water Accounting system automates the daily accounting
for stream flows, reservoir conditions, and ownership in the North Platte River Basin in
Wyoming. We found that if the system fails, the Wyoming Area Office will be prevented
from performing the daily accounting of the North Platte River Basin. Wyoming Area Office
officials stated that the Bureau has a legal requirement to supply information generated by
the system.

In its response to the draft report, the Bureau stated that although the Continuity of
Operations Plans did not address the failure of “cellular phones, telephones, radios, and
automobiles,” the Bureau “cannot be held responsible for global and common possibilities
outside our scope or ability to control.” However, the Bureau stated that it is developing a
contingency and management guide for power and water facilities. We believe that when
contingency plans are completed, the Bureau\v-ill be better able to ensure that its water and
power facilities will operate beyond the year 2000.

The Denver Administrative Service Center had not developed contingency plans related to
Y2K for the mainframe systems because: according to Service Center Y2K project
management, the systems were to be Y2K compliant by the fall of 1998. Service Center
Y2K project management stated that if this target date was not met, a contingency plan
would be developed.

Other Issues

We found other issues that affect the Bureau’s and the Service Center’s Y2K readiness
efforts which should be addressed as follows:

       - Data Exchange. The Department ofthe Interior and the Office ofManagement and
Budget required that an inventory of all data exchanges with outside parties be completed by
February 1, 1998, and that coordination with these parties to determine a transition plan
occur by March 1,1998. We found that the Bureau had not met the Office of Management
and Budget’s target date in that only 22 of the 33 Bureau field offices responded to the
Bureau Y2K coordinator’s request for data exchange information as of May 1998.

The Service Center had inventoried its data exchanges, including external and internal
interfaces, and had contacted responsible parties for all but 5 of the 48 interfaces identified
in the inventory that were in use. According to Service Center Y2K project management,
two of the fi1.e interfaces will be retired before the year 2000, and the remaining three
interfaces were determined to be the receivers’ responsibility. However, documentation n’as
not available to support that these parties were contacted by Service Center project
management to confirm responsibilities.

                                              9
        - Independent Verification and Validation. According to Bureau management,
the independent verification and validation testing of mission-critical systems being
renovated was to be performed internally by Bureau staff because of the expertise needed to
test the systems and the cost im,olved in having independent verification and validation
performed by outside contractors. According to Sen-ice Center Y2K project management,
the Service Center, at the time of our review, was evaluating the use of a contractor to assist
in the independent verification and validation testing of FPPS forY2K. However, we found
that neither the Bureau nor the Service Center had de\.eloped independent verification and
validation test plans or performed independent verification and validation testing ofmission-
critical systems as of May 1998.

        - Compliance Reporting. The Bureau had reported to the Department’s Chief
Information Officer that the Wyoming Area Office’s SCADA system was compliant as of
December 1997 except for certification of the system. However, based on information from
Great Plains Regional personnel responsible for the system, we found, at the time of our
review, that the repaired system had not been implemented. In its response to the draft
report, the Bureau stated that the system had been implemented.

The Service Center’s mainframe computer, the computer that operates FPPS and the
Department’s Federal Financial System (FFS), was reported to be compliant as of July 1997.
However, we found that the Service Center’s version of the mainframe computer operating
system was not Y2K compliant and would not be compliant unless more than 100 program
temporary fixes were implemented or the system was upgraded to a newer version of the
operating system. Service Center Y2K project management said that they planned to upgrade
to the newer version of the operating system and to test the upgraded operating system for
Y2K compliance by August 1998. In addition, the Service Center reported that FPPS was
compliant by design. However, the software products used to develop and operate FPPS
were not Y2K compliant (see the section “Auditable Cost Estimates”). These issues were
not addressed in the Service Center’s information submitted to the Department’s Chief
Information Officer for the May 1998 “Progress Report.”

         - Vendor Certifications. We found that to determine the Y2K compliance of
vendor-supplied hardware and sof3vare. Service Center Y2K project management relied on
the vendors’ written certifications. Hobvever, when the vendors’ certifications could not be
obtained, information contained in the vendors’ Internet home pages \vas used. Although the
Service Center had requested bitten certifications of Y2K compliance from its 25
mainframe software vendors, Service Center Y2K project management had received only
letters certifying Y2K compliance for the software in use from 6 of the vendors.As of May
1998, the status of the requests made to the data communication vendors by the Service
Center was as follows:

       - Responses had not been received from vendors on about 4 percent of the Service
Center’s components.

       - Responses had been received from vendors stating that these components were Y3,K
compliant on about 18 percent of the components.

                                             10
        - Service Center Y2K project management was still addressing the Y2K problems for
 35 percent of its data communication components through planned software upgrades, date
 independence, and end of life for hardw,are and soft\\ are components (no longer needed).

        - Service Center Y2K project management relied on Internet site information for the
 remaining 43 percent of the Service Center’s components to ensure Y2K compliance.

 However, Service Center Y2K project management stated that all data communication
 software and hardware would be tested where possible.

        - System Component Consolidation. The Bureau reported each component of the
Pacific Northwest Region’s Sutron Hydromet system as an individual mission-critical
system. However, personnel in that region responsible for the system said that these
components should not have been reported individually. If the components were combined
into one mission-critical Hydromet system, the number of mission-critical systems reported
for the Pacific Northwest Region would be 5 rather than 10.

        - System Owners. In the Bureau’s Y2K master plan, regional offices rather than
personnel were identified as system owners. Although the Bureau’s master plan identified
a contact (by name) for each of the mission-critical systems reported, we believe that the
designation of regional offices as system owners did not meet the intent of the General
Accounting Office’s “Year 2000 Computing Crisis: An Assessment Guide,” which the
Department required bureaus to follow for Y2K project management and for identifying
system owners.

        - The Federal Financial System. During our review, we found that Bureau Y2K
project management as a customer and Service Center Y2K project management as a service
provider were concerned that the FFS Y2K testing may not be completed as scheduled. FFS
is used by six bureaus within the Department of the Interior and by other Federal agencies.
FFS is being renovated under the Office of the Secretary, and acceptance testing is the
responsibility of the U.S. Geological Survey’s Washington Administrative Service Center.
Further, the Geological Survey’s mainframe computer, which is the computer where FFS
acceptance testing is performed and where FFS operates for three bureaus, had the same
operating system as the Denver Administrative Service Center’s mainframe computer (which
is not Y2K compliant and will not be compliant unless more than 100 program temporary
fixes are implemented or the system is upgraded to a newer version of the operating system).
Bureau and Service Center Y2K project management said that they are not certain that FFS
can be fully tested at either the Denver or the Washington Administrative Service Center
until the upgraded version of the mainframe operating system has been implemented at each
Center. Additionally, the originally scheduled completion date of June 1998 for
implementation of the renovated FFS was not feasible because the upgrade to the operating
system was not available for testing until July 1998, and the Bureau and the Denver
Administrative Service Center expressed concerns that problems related to Y2K could be
encountered during fiscal year 1999.



                                            11
On July 30. 1998, we held an exit conference withY2K project management of the Denver
Administrative Service Center and on August 6, 1998. with project management of the
Bureau of Reclamation and the Chief Information Officer. Service Center Y2K project
management generally agreed with the conclusions contained in this report. However,
Bureau Y2K project management expressed concerns regarding our conclusions on the
Bureau’s reporting of mission-critical systems and adequacy of contingency plans. The
Bureau provided additional information in its response. Specifically, the Bureau generally
concurred with the report and said that it “will continue to focus on Y2K project issues” and
on meeting Departmental and Office of Management and Budget milestone dates. Although
the Bureau disagreed with our conclusion regarding the adequacy of its contingency plans
and stated that only one SCADA will not be Y2K compliant by January 2000, it cited actions
being taken which should enable the Bureau to meet the required milestones for having Y2K
compliant mission-critical systems except for the “Mid-Pacific’s CVACS.” Based on
discussions with Bureau Y2K project management and on the response, we made changes
to the report as appropriate, and we have not made any recommendations.

Since this report does not contain any recommendations, a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of personnel at the Bureau of Reclamation’s Management
Services Office and regional offices and the Denver Administrative Service Center in the
conduct of our review.




                                             12
                                                                                         APPENDIX 1
                                                                                           Page 1 of 2

   BUREAU OF RECLAMATION/DENVER ADMINISTRATIVE
 SERVICE CENTER MISSION-CRITICAL SYSTEMS INVENTORY’
                                                                                            Estimated
   System Name or                                                                            Cost for
      Acronym                                      Description                             Compliance


Great Plains (GP)         Provides Hydromet data reporting and maintenance                      $50,000
Hydromet Support          functions and supports the capture and upload of
                          data into Hydromet from outside sources.

EM340                     Digital 340 Terminal Emulation software for                              5,000
                          Hydromet interfaces.

Hydromet PN 1             Yakima Hydromet System. Collects and processes                          30,000
                          hydrologic and meteorologic data on a near-real-
                          time basis.

Inhouse Hydromet          Hydromet data analysis tools. Program uses the                          16,000
                          information from Hydromet to retrieve, compute,
                          and convert data. This allows users to format
                          reports and use the data for analysis and display.

Sutron Hydromet           Hydromet data collection, translation, and storage.                    75,000

North Platte River        Automated daily accounting of stream flows,                            60,000
Daily Water               reservoir conditions, and ownership in the North
Accounting                Platte River Basin in Wyoming.
(NPRDWA)
Wyoming Area              Monitors and controls 14 power plants and 3                              3,000
Office Supervisory        irrigation canals, and controls flows in 5 river
Control and Data          systems.
Acquisition
(SCADA WYAO)
Inhouse                   Data analysis and formatting.                                          22,500
Agricultural and
Meteorology Data
(AGRIMET)


*Information is from the “Department of the Interior Year 2000 Management Plan.” issued in February 1998,
and the Bureau of Reclamation’s “Y2K Sofhvare Application Report,” dated February 1998.

                                                   13
                                                                                             APPENDIX 1
                                                                                               Page 2 of 2
                                                                                                Estimated
   System Name or                                                                                cost for
      Acronym                                        Description                               Compliance


Inhouse River               Data analysis tools. Program uses the information                       37,500
Operations                  from Hydromet to retrieve, compute, and convert
                            data. This allows users to format reports and use
                            the data for analysis and display-.
Model Simulator             River System Operations Simulation. River                               20,000
(Modsim)                    modeling and simulation program.
Pacific Northwest          Real-time hydrologic and meteorologic data to                            lS,OOO
Operations                 support the Bureau’s water resource management
(PNOPER)                   mission. Supported functional areas include flood
                           control, hydrologic and structural monitoring related
                           to dam safety, irrigation water supply, power
                           generation, dam operations, and water supply.
Umatilla Planning          River System Operations Simulation. River                               20,500
Module                     modeling and simulation program.

Y akima Planning           River Operations Simulation. Ri\-er modeling and                        20,000
Model                      simulation program.

Data Acquisition           Instrumentation database.                                                 9,000
and Management
System (DAMS)
Hydrological River         Water rights and supply accounting model used in                          5,680
Operations Study           river basin planning studies.
System
(HYDROSS)

Colorado River      Remotely controls generation and water bypass for                            285,300”
Storage Project     8 hydroelectric plants, with a total of 19 generating
Supervisory Control units.
and Data
Acquisition (CRSP
SCADA)
     Total                                                                                      $674.480



**This revised estimated cost is the amount reported by the Department of the Interior to the Office of
Management and Budget as of May 1998 in the Department’s “Quarterly Progress Report.”



                                                     14
                                                                                       APPENDIX 2
                                                                                       Page 1 of 3


                United States Department of the Interior




                                       MEMORANDUM

To:            Ofice of Inspector General
                Acting Assistant Insp     -al for Audit-

From:          Eluid L. Martinez /
               Commissioner/

Subject:       Comments on the Draft Evaluation Report on Year 2000 Readiness of Automated
               Information Systems (Assignment No. A-IN-BOR-OOl-98R)

Attached are comments on the Draft Evaluation Report on Year 2000 Readiness of Automated
Information Systems (Assignment No. A-IN-BOR-OOl-98R) at the Bureau of Reclamation. We
appreciate the opportunity to review and comment on the draft report

The report reflects a nontechnical review of Year 2000(Y2K) readiness within Reclamation and
the status of the Y2K project in light of Offke of Management and Budget and Department of the
Interior required guidelines and the six criteria requested for evaluation by the Department’s Chief
lnformation Officer. Discussions between our staffs during the preliminarydraft review period
resulted in many requested corrections which are reflected in the referenced draft. However. we
believe several general comments in the report are unsupported opinions of Reclamation
operations. Our response reflects only a few of the items of concern from thedraft report.
Reclamation will continue to focus on Y2K project issues and meet every deadline imposed by the
Department and OME.

We appreciate the difficulty of reporting on such a complex subject. We hope you will find the
attached comments to be of assistance, and we will be pleased to providefkther information or
clarification on any of the comments provided.




Attachment

cc: Assistant Secretary - Water and Science, Attention: Carla Burzyk
      (w/attachment)



                                                 15
                                                                                         APPENDIX 2
                                                                                         Page 2 of 3



                                   Bureau of Reclamation
                           Comments on OIG Draft Evaluation Report
                     Year 2000 Readiness of Automated Information Systems
                             [A i nm n

                                       General Comments

Results of Evaluation
All known systems were reported in the comprehensive plan sent to the Department of the
Interior (DOI) June 1, 1997. Estimated completion dates have proven accurate with less than 5
percent error. For many years Reclamation has had complex Continuity of Operations Plans for
all of our facilities. The draft implied these Plans did not address all of the specific and
widespread contingencies that could occur as a result of the Y2K problem even though each
facility is prepared for any potential disaster, includingY2K calamities. Reclamation is currently
in the process of developing a “Y2K Contingency Planning and Management Guide for Power
and Water Facilities” which should cover any anticipated shortfalls.

Automated Information Svstems Inventory
At the time of the inventory, no definition for mission-critical systems was available fromDOI.
Reclamation used a combination of definitions from the Department of the Air ForceY2K’s
criteria with a semblance of the actual mission of our Bureau. Reclamation did initially report
more mission-critical systems in an attempt to f’Llly recognize all Y2K issues. However, as a
result of discussions with, and as directed by the Oflice of Information Resources Management
(OIRM), Reclamation reduced to 16 the number of mission-critical systems that were to be
repaired. Based on this guidance, and as a result of guidance from OIRM. Reclamation did not
report mission-critical applications that were not Y2K compliant and were scheduled to be retired
or replaced.

Reclamation does, however, recognize the concern expressed by the OIG with respect to ensuring
that all mission-critical applications are addressed. In fact, we are cognizant of the need to ensure
that these applications will continue to function after January 1, 2000, and are providing high-
level, ongoing management attention to ensure that all mission-critical applications will beY2K
compliant in sut’ficient time prior to January 2000.

Contiwencv Planning
Reference was made that nowhere in the facilities Continuity of Operations Plans was any
consideration made in the event that cellular phones, telephones, radios, and automobiles may fail
due to Y2K noncompliance. Reclamation cannot be held responsible for global and common
possibilities outside our scope or ability to control. However, it is the nature of our workforce to
be at the work site or be readily available to transit to the work site at a moment’s notice.

Auditable Cost Estimates
The OIG stated that it did not expect consistent and auditable cost estimates at this point but
rather. Reclamation should keep track of Y2K expenses from this point forward.

                                                  1



                                                16
                                                                                     APPENDIX 2
                                                                                     Page 3 of 3


SDecific Comments

1.   Page 2. leadinG oaraeraDh. third sentence: Should read March 1, 1999. This is the
     artificially mandated due date for implementation of all Y2K software applications. All
     systems with the exception of the Mid-Pacific’s CVACS will beY2K compliant and
     implemented by March 1, 1999.

2.   Page 6. DaraUaDhs 1 and 2: Since no “special” tinding was or is available for Y2K efforts,
     Y2K costs were and are still taken out of operations and project tinds as they currently
     exist in each office. In most instances there have been no means to track Y2K costs.

3.   &ge 6. pwraph 2. sentence 5: The actual cost to upgrade the terminal emulator
     package in EM340 was $500, and the actual cost to complete the HYJIROSS application
     renovation, including testing and implementation, was $5,680.

4    Page 7. DaragraDh 2: We concur that not all Y2K involved personnel had Y2K
     performance elements in their annual performance plans, including appropriate
     Reclamation executives, Since then, fbrther direction has been disseminated from the
     Commissioner’s ofice to assure the Y2K mission-critical element has been or will soon be
     added to all Y2K responsible personnel.

5.    Paee 8. DaragraDh 2 under “Contingencv Plans”: The actual number of noncompliant
     SCADA systems within Reclamation was two, compared to the numerous SCADA
     systems found throughout Reclamation. It is believed that ten powerplant operators
     would more than cover these two SCADA sites. %lost operations managers do not expect
     a need for additional help, since most feel they are already adequately stat-fed for such an
     emergency. The original request was Reclamation-wide in nature to cover unforeseen
     contingencies that may be outside our control.

6.   Page 9. Dararrauh 5: Reclamation had received no IV&V plan guidance from either DO1
     or OMB at the time of the audit. However, OMB instructions specifying third party tests
     and directions have been given to all Y2K involved personnel and offices throughout
     Reclamation.

7.   Paee 9. DaraUaDh 6. comDliance reDorting: The Y2K compliant SCADA system has been
     implemented at the Wyoming Area Offlice and is still running. The system did, however.
     show non-fatal errors relating to the four-digit year just introduced. These have since been
     repaired.




                                              2



                                             17
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 969 11
 :
 m
     ToU Free Numbers:
 :     l-800-424-5081
 :    TDD l-800-354-0996
 :
 .
 :   FTSICommercial Numbers:
 :
      (202) 208-5300
      TDD (202) 208-2420
 :
 m
 :



      HOTLINE
 I

 :

:
m
:    1849 C Street, N.W.
:
     Mail Stop 5341
 5   Washington, D.C. 20240
 :
 :
 :
 :
 :
 :
:.
:
:
m_
